No. 20-480
IN THE

Ouprente Court of the tiniteb iptateo
DAVID BABCOCK,
Petitioner,
v.
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,861 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 27, 2021.

Colin Casey Igogan
Wilson-Epes Printing Co., Inc.

